No. 20-1611
lNTHE

~upreme <!Court of tbe Wniteb ~tatel1'
HEALTHCARE DISTRIBUTION ALLIANCE, ASSOCIATION
FOR ACCESSIBLE MEDICINES, and SPECGX LLC,

Petitioners,
v.

and HOWARD A. ZUCKER, in their
respective official capacities as Attorney General and
Commissioner of Health of the State of New York,
LETITIA JAMES

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief for

Amicus Curiae Chamber of Commerce of the United States of America in Support of
Petitioners in Healthcare Distribution Alliance v. James, No. 20-1611, complies with
the word limitations, as it contains 5,144 words.
I declare under penalty of perjury that the foregoing is true and correct.

t/1

Date: June 18, 2021

~aakovMR

